No. 19-6026

IN THE
SUPREME COURT OF THE UNTIED STATES

CEDRIC WATKINS / PETITIONER
vs.

SHAWN PHILLIPS / RESPONDENT

PROOF OF SERVICE
I, Cedric Watkins, do swear or declare that on this date,
$C) , 2020, as required
by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.

The names and addresses of those served are as follows:
Herbert Slatery III
Tennessee Attorney General's Office
P.O. Box 20207
Nashville, TN 37202 .

I declare under penalty of perjury that the foregoing is true and correct.

Executed on

Jane

,20 £0

CjlcLtlic Ij ioiJ'Cjjxo
(Signature)

